U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Darrell Henry Williams v. Joe Coakley, Warden,
S.Ct. No. 20-5172

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 14,
2020, and placed on the docket on July 24, 2020. The government’s response is due on August
24, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5172
WILLIAMS, DARRELL HENRY
JOE COAKLEY, WARDEN

DARRELL HENRY WILLIAMS
PRISONER NO. 26008044
PO BOX 4000
SPRINGFIELD, MO 65831

